Chris Jaye
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

Date: December 17, 2019

Chris Jaye
Plaintiff

The Supreme Court of the United States
Docket

v.

United States
Defendants

Proof of Service for Extension

Clerk:
Today, January 17, 2019,1 certify that I mailed an original and two copies of an Application for an
Extension of time to file my petition directed to Chief Justice Roberts by regular mail.
I further certify that today, January 17, 2019,1 sent a copy of same by regular mail to the US
Department of Justice at 950 Pennsylvania Avenue, Washington, DC 20530. As a courtesy, I also
emailed a copy of same Russel Upjohn, Esq.
Do to the mismanagement and misfiling of my documents, I also emailed a copy of same to the US
Supreme Court Clerk’s Office via Lisa Nesbitt’s email address.

Chris Ann Jay
Plaintiff/ Pro/.

RECEIVED
Page 1

DEC 2 7 2019
OFFICE OF THE CLERK
SUPREME COURT. U S.

